No. 21-- -- - INTHE
SUPREME COURT OF THE UNITED STATES

LARRY HARRIS,
Petitioner,
v.

UNITED STATES OF AMERICA,

---•------•----

Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.
Petitioner has previously been granted leave to proceed in forma pa uperis in
the following courts: United States District Court, Eastern District of California
and United States Court of Appeals for the Ninth Circuit.
The appointment was made in District Court pursuant to 18 U.S.C.
§ 3006A(d)(7) and the representation was continued to the Ninth Circuit on appeal.

Dated: February 26, 2021

Respectfully submitted,
HEATHER E. WILLIAMS

Assistant
Counsel of Record for Petitioner

